      United States Department of Agriculture




Office of Inspector General
Lessons Learned from the
Recovery Act: An OIG Perspective




                                       50703-0002-10
                                       August 2014
                                             Lessons Learned from the Recovery Act: 
                                                      An OIG Perspective 

                                                     Audit Report 50703-0002-10 

What Were OIG’s

Objectives

The objective of this report is
to consolidate our Recovery
Act work to identify the
cumulative lessons that should
be learned before                 OIG compiled its Recovery Act audits and
implementing future programs      investigations to present “lessons learned” from
to improve the integrity,         this broad look at USDA programs.
efficiency, and effectiveness
of future USDA programs.          What OIG Found
What OIG Reviewed                 When Congress passed the American Recovery and Reinvestment Act
                                  of 2009 (Recovery Act), the Office of Inspector General (OIG)
We note that this report is a
                                  conducted audits and investigations to ensure that these funds were
compilation of previously
                                  well spent. Our audits resulted in 80 reports, 401 recommendations,
issued OIG reports that have
                                  and $5.1 billion in monetary exceptions. Our investigations into
been discussed with agency
                                  Recovery Act-related fraud resulted in 84 convictions, 8 years of total
and Departmental
                                  supervised release/probation, 8 months of total home confinement
management. These reports
                                  ordered, total recoveries of $11 million, and total forfeiture/seizures of
are publicly available and, in
                                  $1.5 million.
preparing this report, we did
not conduct any additional        The following lessons learned are presented in the spirit of helping
audit or investigative work.      USDA learn from the audit work:
These prior audits were all
conducted in accordance with         ·   Shovel Ready. Most programs that received Recovery Act
generally accepted                       funds were expected to quickly pump money into the
government auditing                      economy, but we found that several were not able to quickly
standards.                               stimulate the economy.
What OIG Recommends                  ·   Oversight. Effective oversight was critical to the Recovery
                                         Act, but USDA could have done more to adequately oversee
OIG made no additional                   and monitor Recovery Act programs.
recommendations in this
report. In its 80 previously         ·   Performance Measures. Agencies needed quantifiable
issued reports, OIG made a               outcomes for Recovery Act programs, but we found that
total of 401 recommendations,            certain measures were not meaningful or realistic.
of which 394 have reached
management decision.                 ·   Quality of Jobs Created Data. Agencies did not always report
                                         accurate information measuring how effective the Department
                                         was in accomplishing Recovery Act objectives and goals, such
                                         as creating new jobs and preserving existing jobs.
                          United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250




19

AUDIT
NUMBER:       50703-0002-10

TO:           Thomas J. Vilsack
              Secretary

FROM:         Phyllis K. Fong
              Inspector General

SUBJECT:      Lessons Learned from the Recovery Act: An OIG Perspective


The Office of Inspector General (OIG) seeks to enhance efficiency, effectiveness, accountability,
and transparency in the Department of Agriculture. When Congress passed the American
Recovery and Reinvestment Act of 2009 (Recovery Act), OIG conducted audits and
investigations to ensure that appropriated Federal funds were efficiently, effectively, and
properly expended. Based on our completed audit work, the following crosscutting themes
emerged from our results:

   ·   program structure
   ·   oversight and monitoring,
   ·   performance measures, and
   ·   quality of USDA’s Recovery Act data, including job estimates.

This report constitutes a compilation summarizing our audit and investigation efforts and
identifying the crosscutting themes, lessons learned, and conclusions from the work that we
performed. We use this report as an opportunity to highlight OIG and the Department’s efforts
to ensure that the Recovery Act was effectively implemented.

We note that this report is a compilation of previously issued OIG audit reports that have been
discussed with agency and departmental management. These audit reports are publicly available
and, in preparing this report, we did not conduct any additional audit or investigative work. We
recognize that agencies have reported to the Office of the Chief Financial Officer the actions
they have taken to implement agreed upon corrective actions in response to our
recommendations. However, when drafting this report, we did not evaluate the adequacy and
sufficiency of the agencies’ corrective actions taken.
Thomas J. Vilsack                                                                            2


If you have any questions or would like to discuss this report, please contact me at
(202) 720-8001 or Deputy Inspector General David Gray at (202) 720-7431. You or your staff
may also contact Assistant Inspector General for Audit Gil H. Harden at (202) 720-6945, or
Assistant Inspector General for Investigations Karen Ellis at (202) 702-3306.

Attachment

cc: (with attachment)

Krysta Harden, Deputy Secretary
Brian Baenig, Chief of Staff to the Secretary
Tina May, Chief of Staff to the Deputy Secretary
Dr. Gregory Parham, Assistant Secretary for Administration
Jon Holladay, Deputy Chief Financial Officer
Michael T. Scuse, Under Secretary, Farm and Foreign Agricultural Services
Kevin Concannon, Under Secretary, Food, Nutrition, and Consumer Services
Robert Bonnie, Under Secretary, Natural Resources and Environment
Cathie Woteki, Under Secretary, Research, Education, and Economics
Doug O’Brien, Acting Under Secretary, Rural Development
Table of Contents

Background and Objectives ................................................................................... 1
Compilation Report on OIG American Recovery and Reinvestment Act of
2009 Assessments of USDA Agencies and Program Areas ................................. 4
         Program Structure.........................................................................................5
         Oversight and Monitoring ............................................................................6
         Performance Measures..................................................................................8
         Quality of USDA’s Data, Including Job Estimates ....................................9
Office of Investigations ......................................................................................... 10
Scope and Methodology ........................................................................................ 13
Abbreviations ........................................................................................................ 15
Exhibit A: Recovery Act Funds Authorized and Appropriated for USDA ... 16
Exhibit B: OIG Recovery Act Activities Summary, FY 2009 through March
31, 2014 ................................................................................................................... 18
Exhibit C: List of Published USDA OIG Recovery Act Reports .................... 19
Exhibit D: Summary of Recovery Act Monetary Exceptions.......................... 26
Exhibit E: Recovery Act Audits with Recommendations Pending Corrective
Action (current as of July 8, 2014) ...................................................................... 29
Exhibit F: Office of Investigations Recovery Act Training and Outreach
Activities, as of September 30, 2013 .................................................................... 32
Exhibit G: Summary of Office of Investigations Activities ............................. 35
Background and Objectives 

Background
The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law in
February 2009,1 providing $840 billion to 28 Federal agencies in order to:

             ·   Preserve and create jobs and promote economic recovery.
             ·   Assist those entities and individuals most impacted by the recession.
             ·   Provide investments needed to increase economic efficiency by spurring
                 technological advances in science and health.
             ·   Invest in transportation, environmental protection, and other infrastructure that
                 will provide long-term economic benefits.
             ·   Stabilize State and local government budgets in order to minimize or avoid
                 reductions in essential services and counterproductive State and local tax
                 increases.

Recovery Act funds were disbursed to recipients through tax benefits and entitlement programs
or awarded through contracts, grants and cooperative agreements, and loans. In general, funds
had to be obligated by September 30, 2010.

The Recovery Act provided the Department of Agriculture (USDA) over $28 billion in
additional funding in a number of areas, including farm loans, watershed programs, supplemental
nutrition assistance, wildland fire management, and several rural development programs, such as
rural housing, rural business, water and waste disposal, and broadband.2 The Recovery Act also
provided $22.5 million for the Office of Inspector General (OIG) oversight and audits (see
Exhibit A).3

When Congress passed the Recovery Act, it directed Government agencies to distribute the
funding as quickly as possible. At the same time, Congress required unprecedented levels of
accountability and transparency for these expenditures, which included USDA OIG oversight
and audits of programs, grants, and activities funded by the Recovery Act. The Recovery Act
also established the Recovery Accountability and Transparency Board (RATB), which was
charged with coordinating and conducting oversight of Recovery Act funds to identify and
prevent fraud, waste, and mismanagement.4 This included receiving periodic reports of
Recovery Act activities from all OIGs.



1
  Public Law (PL) 111-5, dated February 17, 2009.
2
  For the most part, the Recovery Act provided additional funding for existing programs which were serviced by the
existing infrastructure and operating environment.
3
  These funds were to remain available until September 30, 2013.
4
  The Recovery Act stated that the RATB members shall include Inspector Generals from specific agencies,
including the USDA.


REPORT NUMBER 50703-0002-10                                                                                 1
The overall objectives of our audit oversight of the Recovery Act monies were to ensure that
(1) USDA stimulus-related programs were timely and effectively implemented; (2) proper
internal controls procedures were established; (3) program participants met eligibility guidelines;
(4) participants properly complied with program requirements; and (5) agencies established
effective compliance operations. Since speed was a priority with the Recovery Act, we focused
on issuing short-turnaround reports, known as “fast reports” that could later be rolled up into
consolidated reports.

Our audit work was conducted in multiple phases, based on USDA implementation of Recovery
Act-related programs. In the first phase, we reviewed USDA agencies’ implementation of prior
agreed-to audit recommendations to determine if corrective actions related to those
recommendations were fully implemented and were effective in correcting past weaknesses
identified. We also determined whether to expand the scope of in-process or planned audits
related to programs receiving Recovery Act funding. In the second phase, we specifically
reviewed and evaluated program delivery and compliance for those programs receiving
Recovery Act funding. In the last phase, we evaluated agency determinations of Recovery Act
program effectiveness through analysis of agency performance measures.

The overall objectives of our investigative efforts were to ensure the integrity of Recovery Act-
funded programs by (1) timely identifying potential fraud within those programs; (2) swiftly and
efficiently investigating potential fraud; (3) referring matters for prosecution where warranted;
(4) seeking agency administrative action where necessary; and (5) implementing an effective and
efficient whistleblower allegation investigation program.

OIG’s Office of Investigations undertook a number of activities in multiple phases to both
identify fraud as it occurred and expedite, to the extent possible, the investigation and
prosecution of the fraud. Like the Office of Audit, the Office of Investigations took a multi-
phase approach for the Recovery Act activities. In the first phase, we increased the number of
fraud awareness briefings, continued our collaborations with various parties such as the National
Procurement Fraud Task Force, and monitored and modified the OIG Hotline for Recovery Act
complaints. During the second phase, we assessed the referral sources, such as the OIG Hotline,
agencies, and audits. We also opened criminal investigations, as appropriate, and sought to
ensure actions were taken that resulted from our completed investigations.

OIG investigators and auditors participated in numerous training and outreach sessions to raise
awareness of the potential for fraudulent use of Recovery Act funds and to provide information
on how to report allegations of misuse. OIG staff participated as either instructors or attendees,
in 44 formal training sessions, totaling more than 7,100 hours, involving over 5,600 individuals.
In addition to formal training, OIG held 11 outreach sessions.

As the implementation of the Recovery Act ended, RATB set out to document the lessons
learned by agencies and OIGs during their implementation and oversight of the Act. On behalf
of RATB, the U.S. Department of the Interior (DOI) OIG compiled and analyzed data from
16 OIGs, including USDA OIG, on what they and their agencies experienced while
implementing Recovery Act programs. The final report entitled, Lessons Learned from the
Recovery Act: An Agency and OIG Retrospective, was issued in May 2013.

2                                                            REPORT NUMBER 50703-0002-10
The objective of this report is to consolidate our Recovery Act work to identify the cumulative
lessons that can be learned to improve the integrity, efficiency, and effectiveness of USDA
programs.




REPORT NUMBER 50703-0002-10                                                                 3
Compilation Report on OIG American Recovery and Reinvestment 
Act of 2009 Assessments of USDA Agencies and Program Areas  
USDA took steps to implement the Recovery Act in a manner that was transparent, effective, and
efficient. USDA established the Department of Agriculture Recovery Team to oversee the
implementation of the Recovery Act. To facilitate transparency and accountability, USDA
established a Webpage (http://www.usda.gov/recovery) dedicated to the Recovery Act, which
provided specific information on its efforts to implement the Recovery Act. In April 2009,
USDA launched a geospatial mapping Web-function to show exactly where and how USDA is
spending every dollar of Recovery Act funding across the Nation.

USDA OIG worked closely with Department officials to provide effective oversight of Recovery
Act funds and address challenges. We were very active in providing training and outreach to
USDA agency staff, and State and local officials regarding Recovery Act internal controls, fraud
awareness, and the channels available to report wrongdoing in Recovery Act programs.

Office of Audits
As of August 15, 2014, the Office of Audit published 80 consolidated reports and made 401
recommendations to recover funds, correct accounting errors, or improve USDA programs’
management controls over Recovery Act programs and activities. USDA officials concurred and
provided action plans for 394 of the 401 recommendations. Based on data from USDA’s Office
of the Chief Financial Officer, as of July 2014, actions were completed for 294 of the
392 recommendations.5 As a result of these reviews, we also reported monetary exceptions of
over $5.1 billion, including $4.9 billion related to questionable or unsupported costs. Exhibits C
and D of this report list the 80 consolidated reports and the associated monetary exceptions.

As we completed our consolidated reports, several crosscutting themes emerged from our results:

             ·   Program structure.
             ·   Oversight and monitoring.
             ·   Performance measures.
             ·   Quality of USDA’s Recovery Act data, including job estimates.

Rather than a formal audit or evaluation, this report is meant to be a compilation report
identifying the crosscutting themes, lessons learned, and conclusions derived from the
preponderance of the work we performed. We use this report as an opportunity to highlight OIG
and the Department’s efforts to ensure that Federal funds are used effectively.


5
  USDA’s Office of the Chief Financial Officer is responsible for reviewing documentation and approving final
actions to close OIG audit recommendations. As of the date of this report, OIG has not conducted followup audits
to verify that agencies’ actions were implemented. As of July 2014, OIG had issued 394 recommendations. Seven
additional recommendations were issued in a report issued in August 2014, for a total of 401 recommendations.
OCFO does not track final action related to accounting errors, which represent 2 of the 394 recommendations. OIG
has reached management decision on the two accounting errors recommendations.


4                                                                     REPORT NUMBER 50703-0002-10
Program Structure
Most programs that received Recovery Act funds were expected to quickly pump money into the
economy by immediately executing infrastructure and labor intensive projects. These were
known as “shovel ready” projects. However, our reviews discovered USDA encountered
challenges because several of its programs were inherently not “shovel ready.”

Although the Natural Resources Conservation Service’s (NRCS) Recovery Act plan for the
Watershed Rehabilitation Program stated that projects awarded funding were considered “shovel
ready” and the majority should begin construction in fiscal year (FY) 2009, our review found
that none of the projects met these Recovery Act goals.6 Specifically, none of the 27 selected
projects expended half of their funding within the first 120 days, 2 did not complete the dam
rehabilitation with Recovery Act funds, and 6 were withdrawn prior to rehabilitation
construction. This occurred because NRCS did not accurately communicate to USDA and the
Office of Management and Budget (OMB) the nature of the program, which, by design, is not
well-suited to meet the accelerated timeframes and unique challenges posed by the
Recovery Act. As a result, NRCS spent almost $943,000 on projects that could not be completed
and missed an opportunity to use $1.4 million of Recovery Act funds to help the U.S. economy
during the recession.

Our review of Rural Utilities Service’s (RUS) controls over the water and waste disposal
(WWD) loan and grant program also highlighted challenges with executing projects quickly.7
Our review disclosed that RUS did not clearly convey to the public through Recovery.gov the
additional time it takes once a project is obligated to begin actual construction, which is the point
at which most jobs are created. In our review of 22 projects, we found the Recovery Act’s stated
goal—to promote economic recovery through the preservation and creation of jobs—had not
been fully met. This was evident in the 22 WWD projects reviewed that reported less than
20 percent of the actual jobs identified in planning estimates has been created over 30 months
after passage of the Recovery Act. Without a clear understanding of when project construction
begins, the public may misjudge the progress of RUS’ water and waste disposal projects in
meeting the goals of the Recovery Act.

Because of the lessons learned from our findings related to the structural challenges of USDA
programs, the Department implemented or planned to implement a number of actions. For
example, the Department recognized that transparency was important and planned to implement
measures to ensure stakeholders are aware of program constraints. In addition, Rural
Development posted information on the Rural Development Recovery Act website regarding the
timing of water and waste disposal system projects.




6
 Audit Report 10703-0001-At, Recovery Act – Rehabilitation of Flood Control Dams, March 25, 2013.
7
 Audit Report 09703-0001-At, Rural Utilities Service’s Controls over Water and Waste Disposal Loan and Grant
Program for the Recovery Act, July 24, 2012.


REPORT NUMBER 50703-0002-10                                                                             5
Oversight and Monitoring
Considering the significant amount of funding for various USDA programs and the amount of
resources dedicated to immediately executing these programs, effective oversight and monitoring
were critical to the success of the Recovery Act to stimulate the economy. While USDA made
significant strides to prepare for this challenge, it identified weaknesses the Department needed
to address to adequately oversee and monitor affected programs.

For example, OIG discovered that Rural Development’s Rural Business-Cooperative Service
(RBS) was not sufficiently reviewing Rural Business Enterprise Grant projects for compliance.8
Specifically, OIG found that RBS personnel did not obtain or review a significant number of
required project forms and did not always ensure that grant recipients spent prior grant and
matching funds before receiving funding for another project. Based on overall sample results,
we found that 49 percent of RBS grants may have similar issues, with a projected total value of
$4.6 million. Because RBS staff was not properly trained on grant-specific information, we
concluded RBS disbursed improper payments and inconsistently applied requirements.

Additionally, we found that Rural Development field personnel had not always fully complied
with the established internal control procedures or Recovery Act provisions to ensure homes and
program participants who received Single Family Housing Direct Loans funded by the Recovery
Act met eligibility guidelines.9 Specifically, we questioned borrower eligibility determinations
for 17 loans where borrowers had no history of stable and dependable income, had a credit
history that did not indicate the ability and willingness to repay a loan, or did not meet repayment
ability guidelines. We also questioned property eligibility determinations for six loans where
properties had above-ground swimming pools, or which lacked sufficient documentation that the
homes were decent, safe, and sanitary. From our statistical sample, we project that 1,772 loans,
worth $208 million (22 percent of the universe), may have similar noncompliance issues related
to ineligible borrowers and properties.

In another audit, we found that Rural Housing Service’s (RHS) policies and procedures for
Single Family Housing (SFH) guarantee loans were not functioning as intended.10 We
concluded that the controls were not always adequate to safeguard Recovery Act funds and
ensure that funds were expended in a manner that minimized the risk of improper use. Based on
a review of a statistical sample of loans, we estimated that almost 37 percent of the loan
portfolio, with a total projected value of $4.16 billion, was ineligible. Specifically, we identified
ineligible borrowers who received loan guarantees, even though they did not demonstrate the
ability to repay the loan, possessed incomes that exceeded program limits, possessed sufficient
financial resources to obtain loans without a Government guarantee, already owned adequate
housing in their local commuting areas, or purchased homes that had swimming pools. We


8
  Audit Report 34703-0001-31, Rural Business Enterprise Grants Recovery Act Controls Field Confirmations,
January 24, 2013.
9
  Audit Report 04703-0003-KC, Single-Family Housing Direct Loans Recovery Act Controls – Compliance Review,
June 13, 2012.
10
   Audit Report 04703-0002-Ch, Controls over Eligibility Determinations for Single Family Housing Guaranteed
Loan Recovery Act Funds—Phase 2, September 30, 2011.


6                                                                  REPORT NUMBER 50703-0002-10
concluded that RHS officials could have done a better job of managing the Recovery Act funds
and reducing the risk of future losses to the Government.

We also found that Rural Development needs to strengthen its oversight and reviews of SFH
guaranteed loans loss claims.11, 12 Specifically, we found that the agency did not: identify loans
with questionable eligibility prior to paying loss claims, reduce loss claims when lenders
improperly serviced loans, and pay lenders for only eligible expenses. The agency also did not
have sufficient controls to fully justify approvals of pre-foreclosure sales, referred to as “short
sales.” Given the results of our statistical sample of loss claims, we projected that from March
2009 to February 2011, the agency paid about $87 million in loss claims that were at risk of
improper payments, due to questionable loan eligibility; paid about $254 million in loss claims
for loans that were at risk of improper payments, due to questionable lender servicing; and
overpaid $6.28 million related to 6,607 lender-submitted loss claims.

Similarly, our review of Forest Service (FS) Recovery Act grants for wildland fire management
activities, such as hazardous fuels reduction, forest health, and ecosystem improvements, found
that FS lacked the necessary controls to ensure that the grant funds were both properly accounted
for and used for their intended purpose—not just for Recovery Act grants, but for the entire grant
program.13 We also found that FS did not enhance its existing controls, despite the
Recovery Act’s requirements for greater transparency and accountability. FS’ inadequate
oversight allowed grant recipients to charge a total of $92 million in unallowable and
questionable costs to both Recovery Act and non-Recovery Act grants. Of this total, $63 million
came from grant recipients without adequate financial controls and processes, while $29 million
stemmed from FS and other entities’ lack of adherence to the Recovery Act’s objectives.

Another review illustrated the impact of insufficient monitoring, coordination, and guidance on
meeting Recovery Act goals within the Food and Nutrition Service’s (FNS) Supplemental
Nutrition Assistance Program (SNAP).14 Specifically, the audit concluded that four of
six selected States did not fully comply with Recovery Act provisions for transparency and
accountability. In addition, FNS’ regional financial management review process did not
adequately identify issues with transaction accounting, or provide reasonable assurance that
States’ Recovery Act funds were used in accordance with OMB and FNS requirements.

Finally, our review of the Agricultural Research Service’s (ARS) contract closeout process for
Recovery Act projects revealed that ARS’ entire contract closeout process for all projects could
be strengthened.15 We found that ARS lacked adequate management oversight over the contract

11
   The SFH Guaranteed Loan Program substantially reduces a private lender’s risk of loss because the Federal
Government will reimburse up to 90 percent of the original loan amount if a borrower defaults on a loan. These
reimbursements are “loss claims.” The program funding, as well as the number of guaranteed loans, foreclosures,
and loss claims paid, increased from FY 2008 to FY 2011.
12
   Audit Report 04703-0003-Hy, Loss Claims Related to Single Family Housing Guaranteed Loans,
February 25, 2013.
13
   Audit Report 08703-0005-SF, American Recovery and Reinvestment Act Forest Service Hazardous Fuels
Reduction and Ecosystem Restoration Projects on Non-Federal Lands, March 28, 2013.
14
   Audit Report 27703-0001-22, Recovery Act Impacts on Supplemental Nutrition Assistance Program Phase 2,
June 13, 2013.
15
   Audit Report 02703-0001-12, Agricultural Research Service’s Contract Closeout Process, August 14, 2013.


REPORT NUMBER 50703-0002-10                                                                                7
closeout process to ensure related contracting activities met intended goals; and ARS’ acquisition
oversight did not always properly and timely implement Federal-wide processes for evaluating
contractor performance and sharing information among the Federal acquisition workforce. As a
result, we concluded that the Federal procurement workforce lacked necessary information about
ARS’ contractors’ performance, which could result in future selections of contractors ARS
identified as not performing satisfactorily.

The Department took a number of actions to address our recommendations related to oversight
and monitoring. In particular, FS, FNS, and Rural Development’s actions included recovering
identified unallowable costs. Forest Service enhanced its monitoring of grantees’ accounting
processes. In addition, Rural Development and FS actions included training personnel on
responsibilities and requirements when administering its programs. Rural Development also
agreed to amend guidance related to SFH guaranteed loan eligibility and loss claims. Finally,
ARS’ actions included the development of guidance for consistently and timely closing out
contracts, and strengthening its oversight of the closeout process. Implementation of these
actions will benefit these USDA programs now and in the future.

Performance Measures
To achieve an unprecedented level of accountability and transparency, OMB required that each
agency’s plan for using Recovery Act funds contain quantifiable outcomes consistent with the
intent and requirements of the Recovery Act. USDA agencies developed or used existing
performance measures to quantify the success of programs receiving additional Recovery Act
funds. Our reviews found that certain measures were not meaningful or realistic, and we
identified several additional performance measures that might better reflect the agency’s success
in meeting the goals of the Recovery Act.

Our review of the four performance measures for SNAP determined these measures did not
evaluate how the additional funding achieved the goals of assisting those most impacted by the
recession, stabilizing State budgets for essential services, and stimulating the economy. Three of
the four measures related to outputs, such as the dollar amount of benefits issued, instead of
outcomes. The only outcome performance measure, which dealt with food insecurity, did not
directly measure the impact of Recovery Act funds in SNAP to assist those most impacted by the
recession.16

Similarly, our report on the Single-Family Housing Direct Loans Recovery Act Controls
revealed that Rural Development established only one measure of performance.17 However, at
least six additional measures, such as “increase in the number of refinances, to ease payments for
economically distressed low and very-low income homeowners in rural areas” would have
showed American taxpayers how Recovery Act investments achieved established goals.



16
   Audit Report 27703-0002-22, Recovery Act Performance Measures for the Supplemental Nutrition Assistance
Program, March 28, 2013.
17
   Audit Report 04703-0001-KC, Single-Family Housing Direct Loans Recovery Act Controls—Phase 1,
November 5, 2009.


8                                                                   REPORT NUMBER 50703-0002-10
To address our findings and recommendations related to USDA performance measures, the
Department implemented or planned to implement corrective actions. For example,
Rural Development designed two additional performance measures to better track and report the
agency’s accomplishments in meeting the objectives of the Recovery Act. One of those
measures was to increase the percentage of loans closed within established timeframes.
Rural Development believed this measure would promote the immediate delivery of Recovery
Act funds, thus furthering quick economic recovery.

Quality of USDA’s Data, Including Job Estimates
Accurate information is essential to measuring how effective the Department was in
accomplishing Recovery Act objectives and goals. The creation of new jobs and preservation of
existing jobs were part of the immediate goals of the Recovery Act. Although USDA agencies
reported their estimates toward meeting the Recovery Act’s goal of creating or saving jobs, we
found instances where agencies’ estimates were overstated, understated, or misleading.

Our report on Rural Development’s Business and Industry Guaranteed Loans noted that the
reporting of jobs created and saved differed among the State offices.18 We also reported that
these loans were not always verifiable because the agency’s guidance to personnel or lenders did
not define criteria for jobs data, state a maximum timeframe in which jobs must be created,
require supporting documentation for job estimates, or provide policies and procedures for
obtaining supporting documents to ensure that personnel verify that information was reasonable
and accurate.

Our data quality review of Recovery Act jobs reported for USDA programs identified job
numbers that were inflated because award recipients reported cumulative job numbers, instead of
the number of jobs created or saved during the quarter being reported.19 In other instances, job
numbers were underreported. USDA agencies did not identify and remedy the significant errors
that award recipients made because the analytical tools the agencies were using were inadequate
to verify the numbers recipients reported.

Job estimates were not the only data anomalies we found during our reviews. Although the
Department developed useful tools and techniques to assist agency officials with ensuring data
reported to FederalReporting.gov was accurate and reliable, we recommended additional steps
the Department needed to take to improve the accuracy of information used to measure the
effectiveness of the Recovery Act. FederalReporting.gov is a portal where award recipients
submit their award information; this information is then made publicly available on
Recovery.gov.




18
   Audit Report 34703-0001-32, American Recovery and Reinvestment Act—Business and Industry Guaranteed
Loans-Phase 3, March 29, 2013.
19
   Audit Report 50703-0002-13, Data Quality Review of American Recovery and Reinvestment Act Jobs Reported
for USDA Programs, November 30, 2012.


REPORT NUMBER 50703-0002-10                                                                            9
Our report on USDA FederalReporting.gov March 2011 data quality found errors with USDA’s
information.20 Specifically, we reviewed USDA’s 4,974 reported awards and found 1,202 errors
in the information reported by recipients on FederalReporting.gov. These errors included
368 misreported award numbers and amounts, and 834 incorrect award dates. Although OMB
allowed the enforcement of penalties to encourage recipients to correct identified errors, USDA
agency personnel did not consider the errors significant enough to impose penalties.

The Department took a number of actions to address our recommendations related to job
estimates and data quality. In particular, the Department updated its guidance to (1) require
agencies to validate the jobs numbers and project descriptions; and (2) include progressive steps
that USDA agencies may take to ensure that errors are corrected on FederalReporting.gov. The
Department also strengthened its data quality tool to include checks on award date and award
amount found in the “Anomalies” tab of the daily data extract file. In addition,
Rural Development created detailed guidance on how to count and verify jobs created and saved
for its programs. At a time when transparency is important, the lessons learned and actions
implemented to ensure data quality will benefit USDA for the foreseeable future.

Office of Investigations
As of March 31, 2014, OIG investigations staff had received 91 Recovery Act related hotline
complaints, 7 of which were whistleblower reprisal complaints, and 28 RATB referrals related to
the Recovery Act. Our investigations led to 84 convictions, settlements, pleas, or judgments;
total recoveries of $11 million; and total forfeiture/seizures of $1.5 million. As of March 31,
2014, we had seven open investigations.

The majority of the 91 complaints involved Recovery Act work funded by two agencies—the
Rural Utilities Service (33 complaints) and the Forest Service (20 complaints). Fewer than
10 complaints each were also filed involving Recovery Act activities in ARS, FNS, NRCS, RBS,
and RHS. A total of 64 of the complaints have been closed as of March 31, 2014, with most not
being substantiated. Seven complaints were substantiated in whole or in part.21

     ·   One of the substantiated Recovery Act complaints determined that a county administrator
         in Virginia misused Recovery Act funds to extend a broadband project to an unauthorized
         area; the county was required to repay the funds used for the unauthorized work.
     ·   Several complaints reported other problems with broadband service or billing, which
         have been addressed.
     ·   Several other complaints reported perceived problems regarding recipients of
         Recovery Act funds that, while factually correct, did not result in any actual improprieties
         involving Recovery Act funds or projects.

In addition to the OIG Hotline, we also received proactive leads generated by RATB analysts
using software and other analytical tools to identify possible irregularities or suspicious flags

20
   Audit Report 50703-0001-13, American Recovery and Reinvestment Act—USDA FederalReporting.gov
March 2011 Data Quality Review, October 26, 2012.
21
   Including one that was found to involve only non-Recovery Act funds.


10                                                               REPORT NUMBER 50703-0002-10
involving Recovery Act awards.22 Nine proactive RATB leads regarding contracts were referred
to OIG’s Office of Audit. The resulting audit work did not identify any duplication of contracts
or irregularities in the procurement process related to the nine contracts. However, the audit did
find that Forest Service contracting officials had not considered a contractor’s past performance
when evaluating a contract; had not timely entered information into the Federal Business
Opportunities website for seven of the nine contracts; and had not posted accurate or complete
contract information on the website for all nine contracts. The Forest Service generally agreed
with our conclusions and agreed to implement corrective actions.23

One other proactive RATB lead resulted in a joint investigation with several other agencies,
leading to the convictions of three individuals who worked together to fraudulently obtain
Federal set-aside contracts funded through the Recovery Act and other sources.24 The
investigations resulted in the following actions.

        In June and July 2012, two Idaho construction company owners were sentenced in
        U.S. District Court, District of Idaho, for their role in the submission of false statements
        to ARS, the Small Business Administration (SBA), and the U.S. Department of the
        Interior. The companies claimed to be Historically Underutilized Business Zone
        (HUBZone) small business firms so that they could obtain special contracts. One of the
        contracts fraudulently obtained was an ARS Recovery Act contract totaling $274,383.
        The owner of one of the Idaho construction companies was sentenced in June 2012 to
        36 months of probation, during which time the company can conduct no business
        activities, and was ordered to pay a $65,000 fine for her role in the submission of false
        statements and certifications to ARS and SBA. In March 2012, she was charged with one
        count of wire fraud and one count of making false statements in connection with a total
        estimated fraud amount on four different contracts, totaling $1.4 million. She pled guilty
        to one count of wire fraud and one count of making false statements, and admitted she
        made a false certification to ARS and SBA. In July 2012, the second Idaho construction
        company owner was sentenced to 36 months of probation and ordered to pay a $5,000
        fine for his role in falsely claiming to be a HUBZone small business entity.

        In January 2013, a third Idaho construction company owner was sentenced in
        U.S. District Court, District of Idaho, for masterminding the establishment of two shell
        corporations used to obtain SBA set-aside status in order to be awarded Recovery Act
        and other Federal contracts for which his company and the shell corporations would
        otherwise not have qualified. In September 2012, this owner was charged with and pled
        guilty to one count of wire fraud and criminal forfeiture allegations in the amount of
        $250,000; he was sentenced to 8 months of home confinement, 80 hours of community



22
   These proactive leads generated by RATB’s analyses differed from complaints that RATB may have directly
received and forwarded to OIG. The complaints are included as Hotline complaints.
23
   Fast Report 03703-0001-Hy(1), Recovery Accountability and Transparency Board Contract Referrals,
December 31, 2009.
24
   We previously reported on the outcome of this investigation in the Semiannual Reports to Congress, 2nd Half of
FY 2012 and 1st Half of FY 2013.


REPORT NUMBER 50703-0002-10                                                                               11
       service, followed by 24 months of probation, criminal forfeiture of $150,000, and ordered
       to pay a $20,000 fine.

The seven Recovery Act-related investigations open as of March 31, 2014, are related to projects
funded through Rural Development, ARS, and FS. Two of the individuals charged as a result of
one of the Rural Development investigations pled guilty in February 2014 in Federal court in the
Central District of Illinois. They both pled guilty to conspiracy to commit bank fraud, and one of
them also pled guilty to money laundering. Our investigation revealed one individual, who also
owned a separate construction company, applied for a $6 million guaranteed Business and
Industry loan to purchase, renovate, and equip a factory. That individual then conspired with his
son, an executive of the construction company, to have $1.7 million of the loan funds released
under false pretenses. The family-owned construction company was named as the general
contractor for the factory renovations. The two were able to falsely and substantially inflate the
value of the labor or materials furnished by the construction company, thereby drawing money
from the USDA loan for work that was either never performed or was of lesser value than
claimed on the son’s sworn statements provided to the bank. The investigation was conducted
with the Federal Bureau of Investigation, the Internal Revenue Service, and the Federal Deposit
Insurance Corporation.

Work continues on the seven investigations and the resulting prosecutions.




12                                                           REPORT NUMBER 50703-0002-10
Scope and Methodology 
The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law in
February 2009.25 In total, this legislation provided USDA over $28 billion in additional funding,
including $22.5 million for OIG oversight (see Exhibit A). We prepared this report in order to
highlight the crosscutting themes, lessons learned, and conclusions resulting from OIG audits
and investigations of Recovery Act programs.

To identify the universe of Recovery Act audits for this report, we ran a query of all
Recovery Act consolidated reports published from fiscal year 2009 through fiscal year 2014. In
total, we identified 80 consolidated audit reports, which are shown in Exhibit C; they are
grouped by mission area and agency and then listed by audit number. In these 80 consolidated
reports, OIG made a total of 401 recommendations to recover funds, correct accounting errors, or
improve USDA programs’ management controls to administer Recovery Act programs and
activities. USDA officials concurred and provided action plans to reach management decision
for 394 of the 401 recommendations. Based on data from USDA’s Office of the Chief Financial
Officer, as of July 8, 2014, actions were completed for 294 of the 392 recommendations. 26
(See Exhibit E for a listing of recommendations without final action or management decision.)
As a result of these reviews, we also reported monetary exceptions of over $5.1 billion, including
$4.9 billion related to questionable or unsupported costs (see Exhibit D).

To identify the reports used to highlight in this report, we reviewed the executive summaries,
scopes, objectives, and backgrounds of the reports to determine if they applied to the crosscutting
themes described in this report. We selected 14 audit reports for inclusion in this report. We
reviewed and summarized the 14 reports, focusing on their findings and recommendations. We
note that this report is a compilation of previously issued audit reports that have been discussed
with Departmental and agency management. The Departmental and agency responses to the
individual reports are included in the publically available audit reports. These prior audits were
all conducted in accordance with generally accepted government auditing standards. In
preparing this report, we did not conduct any additional audit work. We obtained comments on a
draft of this report from USDA officials, who provided technical comments that we incorporated,
as appropriate.

According to the Office of the Chief Financial Officer, 8 of the 14 audits included as examples in
this report have had corrective actions taken on all of the recommendations.27 We did not
evaluate the sufficiency of any corrective actions implemented as a result of our audit
recommendations and, therefore have not made any statements regarding the results of corrective
actions in this report.


25
   PL 111-5 dated February 17, 2009.
26
   OCFO does not track final action for recommendations related to accounting errors. OIG had two such
recommendations which have reached management decision. In addition, OIG issued Audit Report 09703-0002-22,
Review of a Utility Company’s Use of RUS Financial Assistance, August 14, 2014. OIG accepted management
decision on the seven recommendations in this report, but these recommendations are not reflected in OCFO’s
July 2014 data.
27
   As of July 8, 2014.


REPORT NUMBER 50703-0002-10                                                                        13
We also included information from our investigative activities related to the Recovery Act (see
Exhibits B, F, and G).




14                                                         REPORT NUMBER 50703-0002-10
Abbreviations 
ARS ........................................Agricultural Research Service
DOI…………………………Department of the Interior
FAS ……………………….. Foreign Agricultural Service
FNS ........................................Food and Nutrition Service
FS ...........................................Forest Service
FSA ........................................Farm Service Agency
FY ..........................................fiscal year
HUBZone …………………. Historically Underutilized Business Zone
NIFA ……………………… National Institute of Food and Agriculture
NRCS .....................................Natural Resources Conservation Service
OCFO .....................................Office of the Chief Financial Officer
OIG ........................................Office of Inspector General
OMB ......................................Office of Management and Budget
PL ……….………………… Public Law
RATB ……………………... Recovery Accountability and Transparency Board
RBS ........................................Rural Business-Cooperative Service
Recovery Act .........................American Recovery and Reinvestment Act of 2009
RHS ………………………... Rural Housing Service
RUS ........................................Rural Utilities Service
SBA ………………………...Small Business Administration
SFH ........................................Single Family Housing
SNAP .....................................Supplemental Nutrition Assistance Program
USDA.....................................Department of Agriculture
WIC ........................................Special Supplemental Nutrition Program for Women,
                                              Infants, and Children program
WWD .....................................Water and Waste Disposal




REPORT NUMBER 50703-0002-10                                                                     15
Exhibit A:  Recovery Act Funds Authorized and Appropriated for 
USDA 
Exhibit A summarizes the amount of funds authorized and appropriated for USDA under the
Recovery Act, listed by agency and program. The figures in parentheses represent loan levels
authorized by Congress; these figures are not included in the category totals.

                                     (Dollars in Thousands)
                     Agency/Program Area                                Enacted
 Departmental Administration
  Agriculture Buildings and Facilities                                         $24,000
 Agricultural Research Service
  Buildings and Facilities                                                     176,000
 Office of Inspector General
  Oversight and Audit                                                           22,500
 Farm Service Agency (FSA)
  Information Technology                                                        50,000
  Farm Operating Direct Loans                                                   20,440
        Loan Level                                                           (173,367)
                                                      Total FSA                 70,440
 Natural Resources Conservation Service (NRCS)
  Watershed and Flood Prevention Operations                                    290,000
  Watershed Rehabilitation Program                                             _50,000
                                                    Total NRCS                 340,000
 Rural Development
  Salaries and Expenses                                                     Footnote A
 Rural Development, Rural Business-Cooperative Service (RBS)
  Rural Business and Industry Guaranteed Loan Program                          130,000
        Loan Level                                                         (2,990,000)
  Rural Business Enterprise Grants                                         ____20,000
                                                   Total RBS                   150,000
 Rural Development, Rural Housing Service (RHS)
  Rural Community Facilities Loans Program                                      67,000
        Loan Level                                                         (1,171,000)
  Rural Community Facilities Grants Program                                     63,000
  Section 502 Direct Single Family Housing Loan Program                         67,000
        Loan Level                                                         (1,000,000)
  Section 502 Guaranteed Single Family Housing Loan Program                    133,000
        Loan Level                                                        (10,472,000)
                                                   Total RHS                   330,000
 Rural Development, Rural Utilities Service (RUS)
  Rural Water & Waste Disposal Direct Loan Program                             412,000
        Loan Level                                                         (2,820,000)
  Rural Water & Waste Disposal Grants Program                                  968,000
  Distance Learning, Telemedicine & Broadband Grants                        Footnote B

16                                                         REPORT NUMBER 50703-0002-10
                    Agency/Program Area                                                                  Enacted
 Program
  Distance Learning, Telemedicine & Broadband Loan Program                                                    2,500,000
        Loan Level                                                                                           Footnote B
                                                 Total RUS                                                 ___________
                                                                                                              3,880,000
 Food and Nutrition Service (FNS), Special Supplemental
 Nutrition Program for Women, Infants, and Children
 (WIC)
  WIC Management Information Systems                                                                               100,000
  WIC Contingency Funds                                                                                            400,000
                                                    Total WIC                                                      500,000
 FNS, Supplemental Nutrition Assistance Program (SNAP)
  Increased Benefits                                                                                           19,836,500
  State Administrative Expenses                                                                                   290,500
  Food Distribution Program on Indian Reservations
  Administrative Expenses                                                                                          5,000
  FNS Management and Oversight                                                                                     4,500
                                                   Total SNAP                                                 Footnote C
                                                                                                              20,136,500
 Food and Nutrition Service, Child Nutrition
  Equipment Assistance                                                                                             100,000
 Food and Nutrition Service
  The Emergency Food Assistance Program                                                                            150,000
 Forest Service (FS)
  Capital Improvement and Maintenance                                                                             650,000
  Wildland Fire Management                                                                                        500,000
                                                                                Total FS                        1,150,000
 Agricultural Disaster Assistance Transition
  2008 Transition Assistance                                                                      Footnote C 744,000
  Aquaculture Assistance Grants (CCC Funds)                                                                  _50,000
                                       Total Disaster Assistance                                             794,000
 Foreign Agricultural Service                                                                         Footnote C &D
  Trade Adjustment Assistance for Farmers                                                                    202,500
 RECAP:
  Total, USDA Discretionary Funds                                                                               6,942,940
  Total, USDA Mandatory Funds                                                                                  21,083,000
                                                  Total, USDA                                                  28,025,940

Source: USDA/OBPA 02/23/2009
http://www.usda.gov/documents/FY09_Stimulus_Enacted.pdf

Footnotes:
  Footnote A   The Act allows up to 3 percent of the funds provided to Rural Development for administrative costs
               (approximately $130.8 million).
  Footnote B   Broadband loan budget authority and loan levels to be determined by the agency.
  Footnote C   Mandatory funding; reflects Congressional Budget Office scoring.
  Footnote D   Provides $90 million annually through December 31, 2010 and $22.5 million for the first quarter of FY 2011.


REPORT NUMBER 50703-0002-10                                                                                                  17
Exhibit B:  OIG Recovery Act Activities Summary, FY 2009 through 
March 31, 2014 
Exhibit B shows a snapshot summary of OIG investigative and audit Recovery Act activities
from FY 2009 through March 31, 2014.

                                     Monetary Results ($)
                  Recoveries                                                $11,390,805
             Forfeitures/Seizures                                            $1,484,514
              Estimated Savings                                               $405,412
              Questioned Costs                                            $4,784,937,197
             Unsupported Costs                                              $44,694,063
     Recommendations for Better Use of Funds                               $251,398,673

                                       Work Products
      Training/Outreach Sessions Provided                                        55
              Complaints Received                                                84
       Whistleblower Reprisal Allegations
                   Received                                                       7
                   Accepted                                                       2

                                               Investigations
                                          28
         Active - Open and Underway                                               7
       Convictions, Settlements, Judgments                                       84
     ARRA $ Loss Associated with Convictions
                                                                             $405,412
         and Other Prosecutive Actions

                               Audits/Inspections/Evaluations/Reviews
       In Process - Initiated and Underway29                           2
     Completed Final Published Work Products                          79
      Completed Unpublished Work Products                              0
      Quality Control Reviews (QCRs) Issued                            0




28
  Active as of March 31, 2014.
29
  Work in process as of March 31, 2014, included this assignment (50703-0002-10) and Audit 09703-0002-22,
Review of a Utility Company’s Use of RUS Financial Assistance, issued August 14, 2014.


18                                                                  REPORT NUMBER 50703-0002-10
Exhibit C:  List of Published USDA OIG Recovery Act Reports 
Exhibit C lists the 80 Recovery Act audit reports published by USDA OIG.

Farm and Foreign Agricultural Services

Farm Service Agency

03703-0001-Ch, Controls Over Aquaculture Grant Recovery Act Funds (Phase 1), issued
12/29/09.

03703-0001-Te, American Recovery and Reinvestment Act – Direct Farm Operating Loans
(Phase 1), issued 02/25/10.

03703-0002-Te, American Recovery and Reinvestment Act Direct Farm Operating Loans
(Phase 2), issued 01/13/11).

03703-0001-IT, American Recovery and Reinvestment Act Spending for Farm Service Agency
Information Technology, issued 03/31/11.

03703-0002-Ch, Controls Over Aquaculture Grant Recovery Act Funds (Phase 2), issued
01/20/12.

50703-0001-31, Supplemental Revenue Assistance Payment Program— American Recovery and
Reinvestment Act of 2009, issued 03/12/12.

Food, Nutrition, and Consumer Services

Food and Nutrition Service

27703-0001-KC, Supplemental Nutrition Assistance Program Benefits and the Thrifty Food
Plan, issued 12/03/09.

27703-0001-Hy, Funds Provided by the American Recovery and Reinvestment Act for
Management and Oversight of the Supplemental Nutrition Assistance Program, issued 12/16/09.

27703-0001-At, Review of the Emergency Food Assistance Program, issued 03/31/10.

27703-0001-Ch, Oversight of the Recovery Act WIC Contingency Funds, issued 04/22/10.

27703-0002-Hq, Recovery Act Equipment and Facility Assistance—Food and Nutrition
Service’s Food Distribution Program on Indian Reservations, issued 09/30/10.

27703-0001-Te, Controls Over Outsourcing of Food and Nutrition Service’s Supplemental
Nutrition Assistance Program Electronic Benefits Transfer Call Centers, issued 06/30/11.


REPORT NUMBER 50703-0002-10                                                            19
27703-0001-IT, American Recovery and Reinvestment Act Spending for Food and Nutrition
Service Special Supplemental Nutrition Program for Women, Infants, and Children Management
Information Systems, issued 08/22/11.

27703-0002-Hy, State Fraud Detection Efforts for the Supplemental Nutrition Assistance
Program, issued 01/27/12.

27703-0001-Hq, American Recovery and Reinvestment Act—National School Lunch Program
Equipment Assistance Grants, issued 02/15/12.

27703-0002-At, Recovery Act Impacts on the Supplemental Nutrition Assistance Program,
issued 06/01/12.

27703-0003-At, Review of the Food and Nutrition Service’s Controls Over the Emergency Food
Assistance Program - Phase II, issued 06/07/12.

27703-0002-22, Recovery Act Performance Measures for the Supplemental Nutrition Assistance
Program, issued 03/28/13.

27703-0001-22, Recovery Act Impacts on Supplemental Nutrition Assistance Program Phase II,
issued 06/13/13.

Rural Development

85703-0001-Hq, Existing Risk to Rural Development’s Economic Recovery Program, issued
04/03/09.

Rural Business-Cooperative Service

34703-0001-KC, Controls Over Recovery Act Rural Business Enterprise Grants, issued
03/31/10.

34703-0001-Te, American Recovery and Reinvestment Act – Business and Industry Guaranteed
Loan Program (Phase 1), issued 03/31/10.

34703-0002-Te, Rural Development, American Recovery and Reinvestment Act - Business and
Industry Guaranteed Loans - Phase 2, issued 02/13/12.

34703-0002-KC, The Recovery Act—Rural Development’s Controls Over Rural Business
Enterprise Grants, issued 09/05/12.

34703-0001-31, The Recovery Act—Rural Development’s Rural Business Enterprise Grants
Field Confirmations, issued 01/24/13.

34703-0001-32, American Recovery and Reinvestment Act—Business and Industry Guaranteed
Loans - Phase 3, issued 03/29/13.

20                                                        REPORT NUMBER 50703-0002-10
Rural Housing Service

04703-0001-Ch, Controls Over Eligibility Determinations for Single Family Housing
Guaranteed Loan Recovery Act Funds, issued 09/30/09.

04703-0001-KC, Single Family Housing Direct Loans Recovery Act Controls (Phase 1),
issued 11/05/09.

04703-0001-Hy, Controls Over Rural Community Facilities Direct Loan and Grant Program
Recovery Act Activities - Phase 1, issued 06/29/10.

04703-0002-KC, Single-Family Housing Direct Loans Recovery Act Controls - Phase II,
issued 09/24/10.

04703-0002-Ch, Controls Over Eligibility Determinations for Single Family Housing
Guaranteed Loan Recovery Act Funds (Phase 2), issued 09/30/11.

04703-0003-KC, Single-Family Housing Direct Loans Recovery Act Controls—Compliance
Review, issued 06/13/12.

04703-0002-Hy, Rural Development’s Controls over Eligibility Determinations for the Rural
Community Facilities Program’s Direct Loan and Grant Recovery Act Activities - Phase 2,
issued 09/28/12.

04703-0001-31, Rural Development’s Single-Family Housing Direct and Guaranteed Loans-
Recovery Act—Effectiveness Review, issued 12/12/12.

04703-0003-Hy, Loss Claims Related to Single Family Housing Guaranteed Loans, issued
02/25/13.

Rural Utilities Service

09601-0001-At, Rural Utilities Service Controls over the Water and Waste Disposal Loans and
Grants, issued 09/30/10.30

09703-0001- At, Rural Utilities Service’s Controls Over Water and Waste Disposal Loan and
Grant Program for the Recovery Act, issued 07/24/12.

09703-0001-22, Rural Utilities Service Controls Over Recovery Act Water and Waste Loans and
Grants Expenditures and Performance Measures, issued 03/26/13.



30
  When the final audit was issued, there were findings included pertaining to the Recovery Act; however, the two
recommendations that referenced funds to be put to better use and questioned costs ($8,036,611) were not Recovery
Act related and the monetary values were not captured in any required reportings.


REPORT NUMBER 50703-0002-10                                                                              21
09703-0002-22, Review of a Utility Company’s Use of RUS Financial Assistance, issued
08/14/14.

09703-0001-32, American Recovery and Reinvestment Act of 2009—Broadband Initiatives
Program—Pre-Approval Controls, issued 03/29/13.

09703-0002-32, American Recovery and Reinvestment Act of 2009—Broadband Initiatives
Program—Post-Award Controls, issued 08/22/13.

Natural Resources and Environment

Forest Service

08703-0001-Hq, Existing Risk to Forest Service’s Economic Recovery Program, issued
04/03/09.

08703-0001-Hy, Oversight and Control of Forest Service American Recovery and Reinvestment
Act Activities, issued 09/30/11.

08703-0003-SF, American Recovery and Reinvestment Act—Forest Service Capital
Improvement and Maintenance Projects Roads, Bridges, and Related Watersheds, issued
03/12/12.

08703-0006-SF, American Recovery and Reinvestment Act—Forest Service Capital
Improvement and Maintenance Projects Abandoned Mine Remediation, issued 05/03/12.

08703-0001-SF, American Recovery and Reinvestment Act—Forest Service—Wildland Fire
Management—Wood-to-Energy Projects, issued 06/15/12.

08703-0002-SF, American Recovery and Reinvestment Act—Forest Service Capital
Improvement and Maintenance Projects—Facility Improvement, Maintenance, and
Rehabilitation, issued 07/03/12.

08703-0004- SF, American Recovery and Reinvestment Act—Forest Service Capital
Improvement and Maintenance Projects—Trail Maintenance and Decommissioning, issued
07/03/12.

08703-0001-At, Forest Service’s Use of Recovery Act Funds for Wildland Fire Management on
Federal Lands, issued 09/28/12.

08703-0005-SF, American Recovery and Reinvestment Act—Forest Service Hazardous Fuels
Reduction and Ecosystem Restoration Projects on Non-Federal Lands, issued 03/28/13.

08703-0001-41, Forest Service Performance Measures for Recovery Act Projects, issued
03/28/13.



22                                                       REPORT NUMBER 50703-0002-10
Natural Resources Conservation Service

10703-0001-KC, American Recovery and Reinvestment Act, Emergency Watershed Protection
Program Floodplain Easements - Phase I, issued 09/08/10.

10703-0002-KC, American Recovery and Reinvestment Act - Watershed Protection and Flood
Prevention Operations Program - Phase 1, issued 09/30/10.

10703-0003-KC, American Recovery and Reinvestment Act, Emergency Watershed Protection
Program Floodplain Easements, Easement Applications on Non-Agricultural Land,
issued 03/14/12.

10703-0004-KC, American Recovery and Reinvestment Act—Watershed Protection and Flood
Prevention Operations Program—Field Confirmations, issued 07/24/12.

10703-0005-KC, Recovery Act—Emergency Watershed Protection Program Floodplain
Easements, Field Confirmations, issued 03/14/13.

10703-0001-31, Recovery Act—NRCS’ Emergency Watershed Protection Program Floodplain
Easements and Watershed Operations Effectiveness Review, issued 03/14/13.

10703-0001-At, Recovery Act—Rehabilitation of Flood Control Dams, issued 03/25/13.

Research, Education, and Economics

Agricultural Research Service

02703-0001-Hq, General Procurement Oversight Audit of Beltsville’s Agriculture and Research
Center Steam Study Task Order Awarded to Perkins + Will, Inc., issued 09/15/10.

02703-0002-Hq, General Procurement Oversight Audit of Architectural and Engineering
Services Contracts Awarded by Agricultural Research Service to RMF Engineering, Inc., issued
09/15/10.

02703-0003-Hq, General Procurement Oversight Audit of Beltsville’s Agricultural Research
Service’s National Agricultural Library Bricks Repair Contract Awarded to Vigil Contracting,
Inc., issued 05/06/11.

02703-0004-Hq, Procurement Oversight Audit of Southeast Poultry Research Laboratory,
Replacement of Critical Mechanical Systems Serving Buildings 1, 4, and 34 Contract Awarded
by Agricultural Research Service to Peachtree Mechanical, Inc., issued 07/01/11.

02703-0006-Hq, Procurement Oversight Audit of Construction Contract Awarded by
Agricultural Research Service to Veterans Construction, LLC, issued 08/22/11.




REPORT NUMBER 50703-0002-10                                                            23
02703-0005-Hq, Procurement Oversight Audit of Architect-Engineer Services Contract
Awarded by Agricultural Research Service to Delta Engineers & Architects, P.C., issued
09/30/11.

02703-0008-Hq, Procurement Oversight Audit of National Center for Agricultural Utilization
Research Contract, issued 12/21/11.

02703-0009-Hq, Procurement Oversight Audit of the Western Regional Research Facility
Contract Awarded by Agricultural Research Service to Abide International, Inc., issued
12/21/11.

02703-0007-Hq, Procurement Oversight Audit of National Center for Agricultural Utilization
Research Contract, issued 06/07/12.

02703-0002-10, Procurement Oversight Audit of Red River Valley Agricultural Research Center
Contract, issued 06/18/12.

02703-0001-10, Procurement Oversight Audit of the Invasive Plant Research Laboratory
Contract, issued 09/07/12.

02703-0001-12, Agricultural Research Service’s Contract Closeout Process (Recovery Act),
issued 08/14/13.

Departmental Management

Management Services

50703-0001-Hq, General Procurement Oversight Audit of Departmental Management’s South
Building Modernization Project, issued 06/30/10.

Office of Procurement and Property Management / Office of Operations

50703-0001-12, Recovery Act Procurement Oversight Audit of South Building Modernization
Project, issued 03/25/13.

Office of the Chief Financial Officer

11703-0001-Hq, American Recovery and Reinvestment Act Reporting Oversight, issued
10/23/09.

50703-0001-DA, American Recovery and Reinvestment Act – Review of the Effectiveness of the
Department/Agency Data Quality Review Processes, issued 06/23/10.

50703-0001-13, American Recovery and Reinvestment Act—USDA FederalReporting.gov
March 2011 Data Quality Review, issued 10/26/12.



24                                                        REPORT NUMBER 50703-0002-10
50703-0002-13, Data Quality Review of American Recovery and Reinvestment Act Jobs
Reported for USDA Programs, issued 11/30/12.

General

Multi-Agency

50703-0002-DA, American Recovery and Reinvestment Act – Review of the Effectiveness of the
Department/Agency Data Quality Review Processes, issued 06/25/10 [to the Recovery
Accountability and Transparency Board].

50703-0001-23, American Recovery and Reinvestment Act – Trade Adjustment Assistance for
Farmers Program, issued 10/18/13.

Special Reports Performed on Behalf of the Council of the Inspectors General on Integrity
and Efficiency

Internet Access to Information on Office of Inspector General Oversight of Agency
Implementation of the American Recovery and Reinvestment Act of 2009, issued 01/28/10.

Office of Inspector General Efforts to Support Effective Implementation of the American
Recovery and Reinvestment Act of 2009, issued 07/07/10.




REPORT NUMBER 50703-0002-10                                                               25
Exhibit D:  Summary of Recovery Act Monetary Exceptions  
Exhibit D summarizes the monetary results for our Recovery Act audit reports.

                                                           Questioned/           Funds to be
                                                                                                      Other 31
        Audit Number/Title/Issue Date                      Unsupported           Put to Better
                                                              Costs                   Use
03703-0002-Ch, Controls Over Aquaculture                       $229,533                 $12,135           $5,177
Grant Recovery Act Funds (Phase 2), issued
01/20/12.
04703-0002-Ch, Controls Over Eligibility                  $4,160,000,000                       $0              $0
Determinations for Single Family Housing
Guaranteed Loan Recovery Act Funds (Phase
2), issued 09/30/11.
04703-0003-Hy, Loss Claims Related to                       $346,933,834                       $0              $0
Single Family Housing Guaranteed Loans,
issued 02/25/13.
04703-0003-KC, Single-Family Housing                        $221,000,000                       $0              $0
Direct Loans Recovery Act Controls—
Compliance Review, issued 06/13/12.
08703-0001-At, Forest Service’s Use of                                    $0         $1,500,000                $0
Recovery Act Funds for Wildland Fire
Management on Federal Lands, issued
09/28/12.
08703-0001-SF, American Recovery and                           $9,061,395                      $0              $0
Reinvestment Act—Forest Service—Wildland
Fire Management—Wood to Energy Projects,
issued 06/15/12.
08703-0002-SF, American Recovery and                                $8,089                     $0              $0
Reinvestment Act—Forest Service Capital
Improvement and Maintenance Projects—
Facility Improvement, Maintenance, and
Rehabilitation, issued 07/03/12.
08703-0003-SF, American Recovery and                                      $0                   $0        $21,458
Reinvestment Act—Forest Service Capital
Improvement and Maintenance Projects
Roads, Bridges, and Related Watersheds,
issued 03/12/12.


31
  These amounts are not reported in our Semiannual Reports or tracked to final action. They include accounting
classification errors for monetary amounts which have been incorrectly recorded in financial records and which may
impact the usefulness of information used for management statistical or financial reporting purposes. These
monetary amounts do not impact actual expenditures or receipts and do not represent funds to be put to better use.
These monetary amounts also include under payments/over collections which represent expenditures that should
have been made or collections that should not have been made under applicable provisions of law or regulations.


26                                                                     REPORT NUMBER 50703-0002-10
                                               Questioned/      Funds to be
      Audit Number/Title/Issue Date            Unsupported      Put to Better    Other
                                                  Costs              Use
08703-0004- SF, American Recovery and              $406,534                 $0 $1,653,228
Reinvestment Act—Forest Service Capital
Improvement and Maintenance Projects—
Trail Maintenance and Decommissioning,
issued 07/03/12.
08703-0005-SF, American Recovery and             $65,994,351      $25,779,197          $0
Reinvestment Act—Forest Service Hazardous
Fuels Reduction and Ecosystem Restoration
Projects on Non-Federal Lands, issued
03/28/13.
09703-0001- At, Rural Utilities Service’s            $79,000              $0           $0
Controls Over Water and Waste Disposal
Loan and Grant Program for the Recovery
Act, issued 07/24/12.
09703-0001-22, Rural Utilities Service                    $0        $454,355           $0
Controls Over Recovery Act Water and Waste
Loans and Grants Expenditures and
Performance Measures, issued 03/26/13.
09703-0001-32, American Recovery and                      $0       $6,378,419          $0
Reinvestment Act of 2009—Broadband
Initiatives Program—Pre-Approval Controls,
issued 03/29/13.
09703-0002-22, Review of a Utility Company’s      $27,226,455     $11,395,145          $0
Use of RUS Financial Assistance, issued
08/14/14.
09703-0002-32, American Recovery and                      $0     $150,503,439          $0
Reinvestment Act of 2009—Broadband
Initiatives Program—Post Award Controls,
issued 08/22/13.
10703-0001-31, Recovery Act—NRCS’                         $0        $231,100           $0
Emergency Watershed Protection Program
Floodplain Easements and Watershed
Operations Effectiveness Review, issued
03/14/13.
10703-0001-At, Recovery Act—Rehabilitation                $0       $1,440,028          $0
of Flood Control Dams, issued 03/25/13.
10703-0004-KC, American Recovery and              $1,285,000              $0           $0
Reinvestment Act—Watershed Protection and
Flood Prevention Operations Program—Field
Confirmations, issued 07/24/12.




REPORT NUMBER 50703-0002-10                                                       27
                                               Questioned/      Funds to be
      Audit Number/Title/Issue Date            Unsupported      Put to Better    Other
                                                  Costs              Use
10703-0005-KC, Recovery Act—NRCS’                  $121,302                 $0   $18,172
Emergency Watershed Protection Program
Floodplain Easements Field Confirmations,
issued 03/14/13.
27703-0001-22, Recovery Act Impacts on              $470,272               $0            $0
Supplemental Nutrition Assistance Program
(Phase 2), issued 06/13/13.
34703-0001-31, The Recovery Act—Rural             $4,844,655               $0            $0
Development’s Rural Business Enterprise
Grants Field Confirmations, issued 01/24/13.
34703-0001-32, American Recovery and              $2,600,000               $0            $0
Reinvestment Act—Business and Industry
Guaranteed Loans (Phase 3), issued 03/29/13.
34703-0002-Te, American Recovery and             $16,419,810               $0            $0
Reinvestment Act—Rural Development,
Business and Industry Guaranteed Loans
(Phase 2), issued 02/13/12.
50703-0001-23, Recovery Act – Trade                 $177,485      $65,100,000            $0
Adjustment Assistance for Farmers Program,
issued 10/18/13
                                   TOTALS      $4,856,857,715    $262,793,818 $1,698,035




28                                                      REPORT NUMBER 50703-0002-10
Exhibit E:  Recovery Act Audits with Recommendations Pending 
Corrective Action (current as of July 8, 2014) 
Exhibit E lists, by agency and audit number, audits with recommendations pending corrective
actions as of July 8, 2014, as reported by the Office of the Chief Financial Officer (OCFO).32
Audits not identified in the table have achieved final action per OCFO’s records dated
July 8, 2014.

                                                                                   Recommendation Numbers
                                                               Total
                                                              Number       Pending         Pending           Pending
                                                   Issue      of Recs      Monetary         Final          Management
     Audit Number          Audit Title
                                                   Date       without     Collection33     Action34         Decision35
                                                               Final       (OCFO)          (OCFO)             (OIG)
                                                              Action
       FOOD AND NUTRITION SERVICE
                     Recovery Act Impacts On
                      Supplemental Nutrition
     27703-0001-22                               06/13/13        1             1                0               0
                        Assistance Program
                              Phase II
        TOTAL                                                    1             1                0               0

                FOREST SERVICE
                      Forest Service’s Use of
                      Recovery Act Funds for                                              1, 2, 3, 4, 5,
     08703-0001-At                               09/28/12        8             0                                0
                     Wildland Fire Management                                               8, 9, 10
                         On Federal Lands

                                                                                          1, 2, 3, 5, 6,
                      Recovery Act – Forest
                                                                                          8, 9, 10, 12,
                     Service “Hazardous Fuels
                                                                                          24, 26, 27,
     08703-0005-SF   Reduction and Ecosystem     03/28/13       24             0                              22, 23
                                                                                          30, 31, 37,
                      Restoration Projects on
                                                                                          38, 48, 49,
                        Non-Federal Lands
                                                                                           51, 56-58


       TOTAL                                                    32             0               30               2




32
   OIG did not validate statistics as reported in OCFO’s Management Information Tracking System.
33
   “Pending Monetary Collection” indicates that collections of disallowed costs are still pending and have not been
reported to OCFO.
34
    “Pending Final Action” indicates that agencies have agreed to implement OIG’s recommendations, but
supporting documentation of the corrective actions has not been provided to OCFO.
35
   “Pending Management Decision” indicates that agencies and OIG have not reached agreement on actions to be
taken to implement OIG’s recommendations.


REPORT NUMBER 50703-0002-10                                                                                    29
                                                                                Recommendation Numbers

                                                              Total
                                                             Number      Pending       Pending          Pending
                                                   Issue     of Recs    Monetary        Final          Management
     Audit Number           Audit Title
                                                   Date      without    Collection      Action          Decision
                                                              Final      (OCFO)        (OCFO)            (OIG)
                                                             Action
                MULTI-AGENCY
                                                                                      FAS:1, 2, 3,
                      American Recovery and
                                                               14                       4, 6, 8,         FAS: 5,
                     Reinvestment Act, Trade
     50703-0001-23                                10/18/13                  0          FSA: 11,           FSA:
                     Adjustment Assistance for
                                                                                       NIFA: 14,        7,9,12,13
                        Farmers Program36
                                                                                          15

        TOTAL                                                  14           0               9              5

          NATURAL RESOURCES CONSERVATION SERVICE

                           Recovery Act –
     10703-0001-At     Rehabilitation of Flood    03/25/13     3            0            1, 4, 5           0
                           Controls Dams
                        NRCS Recovery Act
                       Emergency Watershed
     10703-0001-KC       Protection Program       09/08/10     1            0               4              0
                        Floodplain Easement
                               Phase I
                      Recovery Act, Emergency
                        Watershed Protection
                         Program Floodplain
     10703-0003-KC                                03/14/12     1            0               2              0
                        Easements, Easement
                        Applications on Non-
                          Agricultural Land
                       Recovery Act – NRCS’
                        Easement Watershed
     10703-0005-KC       Protection Program       03/14/13     1            6               0              0
                     Floodplain Easements Field
                           Confirmations

        TOTAL                                                  6            1               5              0

            RURAL DEVELOPMENT
                                                                                      3, 4, 5, 6, 7,
                      Controls Over Eligibility                                       8, 9, 10, 11,
                     Determinations for Single                                        12, 13, 14,
     04703-0002-Ch        Family Housing          09/28/11     23           0         15, 16, 17,          0
                     Guaranteed Loan Recovery                                         18, 20, 23,
                        Act Funds (Phase 2)                                           25, 26, 27,
                                                                                         28, 29




36
 This audit contained recommendations for three agencies, Foreign Agricultural Service (FAS), Farm Service
Agency (FSA), and National Institute of Food and Agriculture (NIFA).


30                                                                     REPORT NUMBER 50703-0002-10
                                                                            Recommendation Numbers
                                                           Total
                                                          Number     Pending       Pending         Pending
                                                Issue     of Recs   Monetary        Final         Management
 Audit Number           Audit Title
                                                Date      without   Collection      Action         Decision
                                                           Final     (OCFO)        (OCFO)           (OIG)
                                                          Action
                    Loss Claims Related to
                                                                                  2,7,8,15,20,
 04703-0003-Hy      Single Family Housing      02/25/13     9          12                             0
                                                                                   21,22,23
                      Guaranteed Loans
                    Rural Utilities Service
                   Controls Over Recovery
 09703-0001-22   Act Water and Waste Loans     03/26/13     3           0           1, 2, 3           0
                   and Grants Expenditures
                 and Performance Measures
                 Recovery Act – Broadband
 09703-0001-32    Initiatives Program – Pre-   03/29/13     5           0         1, 2, 3, 6, 7       0
                      Approval Controls
                 Recovery Act – Broadband
 09703-0002-32   Initiatives Program - Post-   08/22/13     1           0              3              0
                        Award Controls
                  Recovery Act – Business
 34703-0001-32     and Industry Guaranteed     03/29/13     1           0              3              0
                        Loans – Phase 3
                  Recovery Act – Business
 34703-0002-Te     and Industry Guaranteed     12/05/11     4           0          1, 2, 3, 4         0
                        Loans, Phase 2

    TOTAL                                                   45          1              44             0

            GRAND TOTAL                          15         98          3              88             7




REPORT NUMBER 50703-0002-10                                                                          31
Exhibit F:  Office of Investigations Recovery Act Training and 
Outreach Activities, as of September 30, 2013 
Exhibit F details OIG Office of Investigations training and outreach activities.

                                      TRAINING ACTIVITIES


                                                                        Training
                                Target                                                    Date of
     Type of Training                          Title of Training      Location (City,
                               Audience                                                  Training
                                                                          State)

Fraud                       Federal          ARRA Oversight           Cape May, NJ      4/14/2009
Prevention/Awareness
Anti-trust                  Federal          Anti-Trust and ARRA      Washington,       5/21/2009
                                                                      DC
Fraud                       State            Avoiding the Pitfalls:   Fresno, CA        7/8/2009
Prevention/Awareness                         Protecting Recovery
                                             Dollars from Waste
                                             and Fraud
Fraud                       State            ARRA Fraud               Sacramento,       7/28/2009
Prevention/Awareness                         Prevention and           CA
                                             Detection Training for
                                             the State of CA
Anti-trust                  Federal          Anti-Trust and ARRA      Beltsville, MD    6/24/2009
Fraud                       Local            ARRA Fraud               Kansas City,      5/19/2009
Prevention/Awareness                         Prevention and           MO
                                             Detection Training
Fraud                       State            ARRA Fraud               San Diego, CA     9/14/2009
Prevention/Awareness                         Prevention and
                                             Detection Training for
                                             the State of CA
Fraud                       State            ARRA Fraud               Los Angeles,      9/15/2009
Prevention/Awareness                         Prevention and           CA
                                             Detection Training for
                                             the State of CA
Fraud                       State            ARRA Fraud               San Francisco,    9/17/2009
Prevention/Awareness                         Prevention and           CA
                                             Detection Training for
                                             the State of CA
Fraud                       Mixed            Stimulus Recovery        Philadelphia,     10/15/2009
Prevention/Awareness                         Act Fraud Awareness      MS
Fraud                       Mixed            OIG Fraud Awareness      Raleigh, NC       12/1/2009
Prevention/Awareness



32                                                             REPORT NUMBER 50703-0002-10
                                 TRAINING ACTIVITIES

                                                                Training
                          Target                                                  Date of
    Type of Training                     Title of Training    Location (City,
                         Audience                                                Training
                                                                  State)

Fraud                  Mixed           OIG Fraud Awareness    Jonesboro, GA     12/16/2009
Prevention/Awareness
Fraud                  State           Protecting America's   Raleigh, NC       2/17/2010
Prevention/Awareness                   Agricultural Assets
Fraud                  Federal         Presentation to ND     Fargo, ND         3/3/2010
Prevention/Awareness                   Rural Development
                                       Staff
Fraud                  Federal         OIG Fraud Awareness    Raleigh, NC       3/9/2010
Prevention/Awareness                   (Recovery Act)
Fraud                  Federal         OIG Fraud Awareness    Jacksonville,     4/6/2010
Prevention/Awareness                                          FL
Fraud                  Mixed           OIG Fraud              Research          6/10/2010
Prevention/Awareness                   Awareness/ARRA         Triangle Park,
                                                              NC
Fraud                  Mixed           OIG Fraud              North Myrtle      6/21/2010
Prevention/Awareness                   Awareness/ARRA         Beach, SC
Fraud                  Local           OIG Fraud Awareness    Miami, FL         7/27/2010
Prevention/Awareness
Fraud                  Mixed           OIG Fraud Awareness    Raleigh, NC       8/5/2010
Prevention/Awareness
Fraud                  Mixed           OIG Fraud Awareness    Raleigh, NC       9/8/2010
Prevention/Awareness
Fraud                  Mixed           OIG Fraud Awareness    Raleigh, NC       9/13/2010
Prevention/Awareness
Fraud                  Mixed           OIG Fraud Awareness    Asheville, NC     9/28/2010
Prevention/Awareness
Fraud                  Mixed           OIG Fraud Awareness    New York, NY      2/15/2011
Prevention/Awareness
Fraud                  State           OIG Fraud Awareness    Raleigh, NC       2/16/2011
Prevention/Awareness
Fraud                  Mixed           OIG Fraud Awareness    Wrightsville      2/18/2011
Prevention/Awareness                                          Beach, NC
Fraud                  State           Fraud Awareness        Wilson, NC        3/1/2011
Prevention/Awareness
Fraud                  Mixed           Fraud                  Durham, NC        8/18/2011
Prevention/Awareness                   Awareness/ARRA



REPORT NUMBER 50703-0002-10                                                          33
                                       TRAINING ACTIVITIES

                                                                         Training
                                   Target                                                  Date of
     Type of Training                          Title of Training       Location (City,
                                  Audience                                                Training
                                                                           State)

Fraud                        State           Fraud                     Lexington, NC     8/19/2011
Prevention/Awareness                         Awareness/ARRA
Fraud                        Federal         Fraud Awareness           Wrightsville      2/17/2012
Prevention/Awareness                                                   Beach, NC
Fraud                        Mixed           Fraud Awareness           Kannapolis, NC    3/16/2012
Prevention/Awareness
Fraud                        Mixed           Fraud Awareness           Wilson, NC        3/16/2012
Prevention/Awareness
Fraud                        State           Fraud Awareness           Burlington, NC    8/9/2012
Prevention/Awareness

                                     OUTREACH ACTIVITIES
Organization to which        Number of     Description of              Outreach          Date of
Outreach Provided            Organizations Outreach                    Location (City,   Outreach
                             Represented                               State)
                             at Outreach
                             Session
MD Human Services            2               To discuss concerns       Baltimore, MD     6/2/2009
Agency OIG                                   related to increased
                                             SNAP funding under
                                             ARRA and other
                                             issues
CA Department of Health      1               To discuss mutual         CA                6/4/2009
Services                                     ARRA-related WIC
                                             investigations
Local Law Enforcement        8               USDA-OIG’s Role in        Hauppage, NY      10/21/2009
Agencies and Organized                       Detecting ARRA
Retail Crime Fraud                           Fraud
Investigators
State and local law          35              ARRA was discussed        Oakland, CA       11/4/2009
enforcement agencies                         as part of presentation
                                             on USDA-OIG
State, local and county      40              ARRA fraud                Carson City,      12/1/2009
level employees in NV                        awareness/prevention      NV
Rotary Club                  1               Presentation on           Canton, MS        5/27/2010
                                             ARRA
Coastal Bend Intel Sharing   10              Provided information      Corpus Christi,   8/5/2010
Group                                        on ARRA and OIG           TX


34                                                             REPORT NUMBER 50703-0002-10
Exhibit G:  Summary of Office of Investigations Activities 
Exhibit G shows the summary of the Office of Investigations activities as of March 31, 2014.
This information was reported to RATB. Infrastructure represents those activities related to
Recovery Act contract, grant, and loan programs. As directed by the RATB, we reported a
portion of our Supplemental Nutrition Assistance Program (SNAP) investigative work as
Recovery Act-related as the Recovery Act increased the value of SNAP benefits provided to
recipients.



                                               Infrastructure    Entitlements         Total




Active Investigations                      7                    0                7



Cumulative Convictions, Judgments,
                                           5                    79               84
Settlements, Pleas



Total Monetary Loss Associated w/
Convictions, Judgments, Settlements,       $114,021              $291,391        $405,412
Pleas




REPORT NUMBER 50703-0002-10                                                              35
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
